=
I

C@OCKLE

Legal Briefs

Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 © www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No.

CLUB ONE CASINO, INC., dba CLUB ONE CASINO,
GLCR, INC., dba THE DEUCE LOUNGE AND CASINO,
Petitioners,
vs.

DAVID BERNHARDT, SECRETARY OF THE INTERIOR,
in his official capacity; TARA KATUK MACLEAN
SWEENEY, ASSISTANT SECRETARY OF THE
INTERIOR - INDIAN AFFAIRS, in her official capacity;
UNITED STATES DEPARTMENT OF THE INTERIOR,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8742 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of December, 2020.
| am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Webraska Zz 2 4 Z
i RENEE J. GOSS O. Qudraw- 4

ERS My Comm. Exp. September &, 2023
Affiant

 

Notary Public
40141
